NO.
IN THE
SUPREME COURT OF THE UNITED STATES

BRENDA WHITE - PETITIONER
VS
SOUTHEAST MICHIGAN SURGICAL HOSPITAL,
et al,-RESPONDENT (S)

PROOF OF SERVICE

I, BRENDA WHITE, do swear or declare that on this date, JUNE 19, 2021, as required by
Supreme Court Rule 29 I have Served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
THOMAS R. SHIMMEL (P41280)
KITCH, DRUTCHAS, WAGNER,
VALITUTTI, & SHERBROOK
Attorneys for Defendant -Appellee
Southeast Michigan Surgical Hospital
One Woodward Avenue, Suite 2400
Detroit, Michigan 48226
Phone: (313) 965-6953

ROBERT G. KAMENEC (P35283)
PLUNKETT COONEY Attorneys
for Defendant-Dr. GARY DOCKS
38505 Woodward Ave. Suite 100
Bloomfield Hills, Michigan 48304
Phone: (248) 901-4068

I declare under penalty of perjury that the foregoing is true and correct.
Executed on: JUNE 19, 2021

Signature
BRENDA WHITE

JUN 2 2 2021

ISily££mLP':

I

